<html>
<title> - OVERSIGHT OF THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
          OVERSIGHT OF THE CONSUMER PRODUCT SAFETY COMMISSION 

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 2, 2012

                               __________

                           Serial No. 112-171



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-725 PDF                       WASHINGTON : 2014 

  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 



                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 ______

           Subcommittee on Commerce, Manufacturing, and Trade

                       MARY BONO MACK, California
                                 Chairman
MARSHA BLACKBURN, Tennessee          G.K. BUTTERFIELD, North Carolina
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               CHARLES A. GONZALEZ, Texas
CHARLES F. BASS, New Hampshire       JIM MATHESON, Utah
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
LEONARD LANCE, New Jersey            EDOLPHUS TOWNS, New York
BILL CASSIDY, Louisiana              BOBBY L. RUSH, Illinois
BRETT GUTHRIE, Kentucky              JANICE D. SCHAKOWSKY, Illinois
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
ADAM KINZINGER, Illinois
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, opening statement...............................     1
    Prepared statement...........................................     3
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     6
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, prepared statement....................    85

                               Witnesses

Inez Tenenbaum, Chairman, Consumer Product Safety Commission.....     7
    Prepared statement...........................................     9
    Answers to submitted questions...............................    86
Robert S. Adler, Commissioner, Consumer Product Safety Commission    17
    Prepared statement...........................................    19
    Answers to submitted questions...............................   127
Nancy A. Nord, Commissioner, Consumer Product Safety Commission..    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................   138
Anne M. Northup, Commissioner, Consumer Product Safety Commission    45
    Prepared statement...........................................    47
    Answers to submitted questions...............................   181

                           Submitted Material

Letter, dated August 1, 2012, from Rosario Palmieri, Vice 
  President, Infrastructure, Legal, and Regulatory Policy, 
  National Association of Manufacturers, to Mrs. Bono Mack and 
  Mr. Butterfield, submitted by Mrs. Bono Mack...................    76


          OVERSIGHT OF THE CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                        THURSDAY, AUGUST 2, 2012

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:40 a.m., in 
room 2322, Rayburn House Office Building, Hon. Mary Bono Mack 
(chairman of the subcommittee) presiding.
    Members present: Representatives Mack, Blackburn, Bass, 
Harper, Lance, Guthrie, Olson, McKinley, Pompeo, Kinzinger, 
Barton, Butterfield, Schakowsky, Sarbanes, and Waxman (ex 
officio).
    Staff present: Paige Anderson, Commerce, Manufacturing, and 
Trade Coordinator; Kirby Howard, Legislative Clerk; Brian 
McCullough, Senior Professional Staff Member, Commerce, 
Manufacturing, and Trade; Gib Mullan, Chief Counsel, Commerce, 
Manufacturing, and Trade; Andrew Powaleny, Deputy Press 
Secretary; Shannon Taylor Weinberg, Counsel, Commerce, 
Manufacturing, and Trade; Michelle Ash, Democratic Chief 
Counsel, Commerce, Manufacturing, and Trade; Felipe Mendoza, 
Democratic Counsel, Commerce, Manufacturing, and Trade; and 
William Wallace, Democratic Policy Analyst.

 OPENING STATEMENT OF HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Bono Mack. Good morning. The subcommittee will now 
come to order.
    It has been a year now since Congress, at the urging of our 
subcommittee, approved key reforms to the Consumer Product 
Safety Improvement Act of 2008. Today we are going to check 
under the hood, talk to members of the Consumer Product Safety 
Commission, and see how it is working.
    And the Chair now recognizes herself for an opening 
statement. And I appreciate that general counsel changed the 
clock from 86 minutes to 5 minutes, but I will keep it to 5 
minutes.
    So, established in 1972, the Consumer Product Safety 
Commission is an independent agency created by Congress to 
protect consumers against unreasonable risks of injuries 
associated with consumer products. By and large the CPSC does 
an admirable job of protecting Americans, and I remain very 
supportive of its work, but on occasion the agency makes some 
puzzling, head-scratching decisions which create economic 
hardships for U.S. businesses without appreciably improving the 
safety of certain products.
    By law the CPSC has the authority to regulate the sale and 
manufacture of more than 15,000 different consumer products, 
ranging from baby cribs to toys and from all-terrain vehicles 
to swimming pools. Without question the CPSC has very broad 
authorities, which makes congressional oversight critically 
important. The agency has the power to ban dangerous consumer 
products, issue recalls of products already on the market, and 
research potential hazards associated with a wide range of 
consumer products.
    Today the CPSC learns about unsafe products in several 
ways. The agency maintains a consumer hotline and Website 
through which consumers may report concerns about unsafe 
products or injuries associated with products. It also operates 
the National Electronic Injury Surveillance System, which 
collects data on product-related injuries treated in hospital 
emergency rooms.
    The broad reach of the CPSC was on full display in 2007, 
which has been referred to as the ``year of the recall'' in the 
U.S. Fueled by the Chinese toy scare, the CPSC alone imposed a 
record 473 recalls in 2007, many of these recalls involving 
lead in toys and other children's products. These much-
publicized safety issues prompted Congress to take action and 
resulted in passage of the Consumer Product Safety Improvement 
Act of 2008, also known as CPSIA.
    Among other things, CPSIA increased funding and staffing 
for the CPSC, placed stricter limits on lead levels in 
children's products, restricted certain phthalates in 
children's toys and child-care articles, and required the CPSC 
to create a public database of their products. The public 
database, saferproducts.--excuse me, yes, 
saferproductsdot.gov--no, OK, staff thinks I wouldn't notice 
saferproducts.gov--thank you, staff.
    So, this remains a source of controversy. Manufacturers 
continue to express their concern that most of the complaints 
are not vetted by the CPSC before they are made public, opening 
the door to all kinds of mischief, whether to fuel lawsuits or 
to try and ruin a competitor's brands.
    Within months of enactment of CPSIA, it became clear that 
implementing a number of provisions would be extremely 
problematic, prompting the agency to issue several significant 
stays of enforcement prior to 2011, including the imposition of 
lead limits for ATVs, off-road-use motorcycles and snowmobiles. 
Why the agency even considered such limits is one of those 
puzzling, head-scratching decisions. So last year, after 
several hearings, and after bicameral and bipartisan 
negotiations, both the House and the Senate passed H.R. 2715, 
offered by myself and my good friend and colleague Mr. 
Butterfield. On August 12, 2011, President Obama signed that 
legislation into law. Our purpose was to relieve unfair and 
costly burdens imposed on American businesses, while still 
maintaining critically important consumer safeguards. Today I 
am very anxious to learn how well that new law is working.
    [The prepared statement of Mrs. Bono Mack follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. And with that, the gentlelady from Illinois 
is now recognized for 5 minutes for her opening statement.
    Ms. Schakowsky. Thank you.
    Let me just say that Mr. Butterfield will be here. He is on 
the floor and unable to come now, but I want to yield first to 
Mr. Waxman, who is the ranking on the full committee, for his 
opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Ms. Schakowsky, for your 
courtesy in allowing me to go ahead of you at this time because 
of scheduling problems that I have.
    I want to thank you, Madam Chair, for holding this hearing 
to conduct oversight on the activities of the U.S. Consumer 
Product Safety Commission, and I am pleased that we have all 
four Commissioners here today to provide testimony.
    This month will mark 4 years since enactment of the 
Consumer Product Safety Improvement Act of 2008, or what is 
called CPSIA. It will mark 1 year since enactment of Public Law 
112-28, which gave the Consumer Product Safety Commission 
additional flexibility in implementing the law.
    This law was a landmark piece of legislation. It 
fundamentally changed how we protect children from potentially 
dangerous products. Implementation of this law has been the 
predominant focus of the Commission. The goal of the law was to 
transform the agency's mission. The Commission used to be an 
underfunded, ineffective, reactive agency. Today the Commission 
is still underfunded, unfortunately, but it is no longer 
ineffective and reactive. Today the agency is on a path toward 
anticipating risks to children and acting to prevent them.
    No transformation is easy, and this has been no different. 
There were some rough waters in the early days of 
implementation, and a year ago we had to act to pass some 
targeted fixes to the law. But make no mistake about it, this 
law has been a success. Thanks to this safety law, we now have 
strong standards for products used by infants and children, 
including cribs, toddler beds, walkers, and bath seats. We now 
have a product registration system that enables manufacturers 
or retailers of durable infant and toddler products to contact 
parents with recall or other safety information.
    We now have a consumer products safety information database 
where the public can file and view reports about harm from 
consumer products. And we also have testing of products to 
ensure that they are safe before they ever make it into our 
children's hands.
    And the results of the law are clear. Toy-related deaths 
have fallen, recalls due to lead have declined by 80 percent, 
and recalls overall have continued to decline as products have 
become safer. Border enforcement is also up.
    These protections matter to parents. They matter to 
children. So I look forward to hearing--the hearing today from 
the Commissioners about their continuing work. While I may not 
be able to be here throughout your testimony, I certainly will 
have a chance to review it after you have given it, as I have 
for your statements that have been entered into the record. And 
I thank all four of you for being here and yield back the 
balance of my time.
    Mrs. Bono Mack. Thank the gentleman.
    And at this point I will recognize Ms. Schakowsky for 5 
minutes for a statement. We have nobody requesting time on our 
side.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Well, I thank you, Madam Chairman, for 
holding this hearing. I think it is important for the 
subcommittee to hear from the Consumer Product Safety 
Commission about its activities, and particularly the ongoing 
implementation of the landmark Consumer Product Safety 
Improvement Act.
    A few weeks ago, I joined Chairman Tenenbaum, and Danny 
Keysar's mother, Linda Ginzel, at a press conference to mark 
the adoption of the strongest standard in the world for play 
yards. The play yard standard is significant because it was a 
dangerous product that led to Danny's death at his day-care 
center when it really was used as a crib, collapsed and choked 
him. And the portion of this CPSIA that I authored and that 
mandated the new standard bears his name.
    I mention the play yard standard because it is a specific 
example of how the CPSIA's safety standard for toys and 
children's products will save lives. That was our goal at the 
outset of drafting the legislation, and it is the one that we 
met.
    Last year we passed a bill with some narrow fixes so that 
implementation of the law could continue smoothly. And I 
welcome today's opportunity to review progress, but want to say 
clearly that I believe it is absolutely critical that we 
continue to support and uphold the fundamentals of this 
historic legislation.
    I want to highlight that CPSIA was a bipartisan effort. It 
passed the House 424 to 1, from the beginning to the end, and 
is a model for what this Congress can achieve on behalf of the 
American people.
    And, Chairman Tenenbaum, I commend you for your leadership 
on implementing the safety standards for children's products, 
and also for your ongoing work to improve the safety of table 
saws and window coverings, and I thank you for leading this 
Commission in a way that continues to provide safety and 
security to the American consumer. And I also deeply thank 
Commissioners Adler, Nord, and Northup for their service, and 
for being here today. And I yield back the balance of my time.
    Mrs. Bono Mack. I thank the gentlelady.
    And we turn our attention now to the panel that we have 
before us today. Each of our witnesses has prepared an opening 
statement that will be placed into the record. You will each 
have 5 minutes to summarize the statement in your remarks, but 
I am sure you all are very familiar with this--the way it 
works.
    Our distinguished panel includes the Honorable Inez 
Tenenbaum, Chairman of the Consumer Product Safety Commission, 
and we thank you very much for postponing or changing your 
travel plans to be with us today, and thank you very much for 
that. We also have with us the Honorable Robert Adler, 
Commissioner at the CPSC; the Honorable Nancy Nord, 
Commissioner; and our former colleague, it is great to see her 
again, the Honorable Anne Northup, another Commissioner at the 
CPSC.
    So good morning. Thank you all very much for being here 
today. And with that, Chairman Tenenbaum, you may begin with 
your 5 minutes.

  STATEMENTS OF INEZ M. TENENBAUM, CHAIRMAN, CONSUMER PRODUCT 
  SAFETY COMMISSION; ROBERT S. ADLER, COMMISSIONER, CONSUMER 
    PRODUCT SAFETY COMMISSION; NANCY A. NORD, COMMISSIONER, 
     CONSUMER PRODUCT SAFETY COMMISSION; ANNE M. NORTHUP, 
        COMMISSIONER, CONSUMER PRODUCT SAFETY COMMISSION

                 STATEMENT OF INEZ M. TENENBAUM

    Ms. Tenenbaum. Thank you. Good morning, Chairman Bono Mack 
and members of the Subcommittee on Commerce, Manufacturing, and 
Trade. I am pleased to be here today to discuss the U.S. 
Consumer Product Safety Commission's operations and activities 
to keep consumers safe from dangerous and defective consumer 
products.
    The agency is in the strongest position to meet its mission 
than it has been in more than a decade. In the limited time I 
have today, I would like to focus on a few recent achievements 
as well as look ahead to 2013.
    The first area I would like to use is the CPSC's ongoing 
work to ensure that infant and toddler products meet some of 
the world's strongest safety standards. In the years leading up 
to the passage of the CPSIA, there were numerous instances of 
injuries and deaths to infants and small children in defective 
infant and durable nursery equipment. As a result the CPSA 
contains section 104, which requires mandatory safety standards 
for most infant and toddler products.
    When I assumed the chairmanship of the Commission in the 
summer of 2009, there were no mandatory safety standards for 
any of these products. Since then I have moved to implement 
this mandate as quickly as possible. In December 2010, the 
Commission passed the toughest crib safety standard in the 
world. Subsequently we also passed mandatory safety standards 
for baby walkers, baby bath seats, bed rails, toddler beds, and 
play yards.
    In addition to infant and toddler products, the Commission 
has also implemented the CPSIA's requirement that all 
children's products in the market be subject to periodic 
independent assessment of the safety by a third-party testing 
laboratory. We provided manufacturers with a great amount of 
flexibility and choice on how to comply as long as they have a 
high degree of assurance that their children's products are 
compliant. We are currently reviewing our staff's report on the 
potential ways to reduce third-party testing costs consistent 
with ensuring compliance as required by Public Law 1228.
    I am also very proud of the work by Commission staff to 
implement and maintain the publicly searchable database 
saferproducts.gov. Overall saferproducts.gov is a model of open 
government and consumer empowerment, and I appreciate the hard 
work by many of this subcommittee to further improve 
saferproducts.gov during the Public Law 1228 debate.
    The best way to ensure that dangerous consumer products 
never get into the hands of consumers is to ensure that they 
never enter the United States. As Chairman I have place special 
emphasis on the past year on the continued development of the 
CPSC's Office of Import Surveillance. This office works hand in 
hand with U.S. Customs and Border Protection officers in major 
U.S. ports of entry to inspect and detain shipments that 
violate U.S. Consumer Product Safety standards. In fiscal year 
2011, CPSC import surveillance staff was able to stop 
approximately 4.5 million units of violative and hazardous 
consumer products from entering the United States.
    In 2013, funding permitted, I am optimistic that the CPSC 
will be able to take additional steps toward full 
implementation of a fully integrated targeting system, often 
referred to as the risk assessment methodology, or RAM. This 
will allow CPSC staff to analyze a greater number of import 
shipments, identify those that are more likely to violate 
consumer safety laws, and ensure that our limited resources are 
dedicated to those shipments.
    I would also like to highlight a number of positive 
collaborative relationships we have established. The first is 
in the area of educating parents to ensure that infants have a 
safe sleep environment. As part of this I have reached out to 
major retailers who sell sleep products like cribs and play 
yards to ask them to join me in educating parents that the 
safest way for their baby to sleep is alone in a crib on its 
back.
    Accidental ingestion of coin and button cell batteries is 
another area in which we are keenly focused. We had very 
productive meetings with the major battery manufacturers, and a 
range of possible solutions from design changes to safer 
packaging have been discussed.
    The third collaborative model is occurring in youth sports, 
particularly in the area of head injuries in football. I am 
very pleased that after much hard work initiated by my office, 
a group effort led by the National Football League is under way 
to provide economically disadvantaged youth football programs 
with new helmets, and to conduct an education campaign to bring 
about a culture change in this sport.
    In the coming months and years, I see a CPSC addressing 
hazards I have already mentioned as well as moving to address 
emerging hazards. At CPSC we are carrying out a statutorily 
required, proactive regulatory agenda, and consumers are safer 
because of this approach.
    With an increasing focus at the ports, with more meaningful 
standards coming online, and with even greater public/private 
efforts, I envision safer and safer products in the hands of 
consumers. They deserve no less.
    Chairman Bono Mack, thank you for the opportunity to 
testify. I am happy to answer any questions you may have later. 
Thank you.
    Mrs. Bono Mack. Thank you very much.
    [The prepared statement of Ms. Tenenbaum follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. Commissioner Adler, you are recognized for 
5 minutes.

                  STATEMENT OF ROBERT S. ADLER

    Mr. Adler. Thank you very much. Good morning.
    Mrs. Bono Mack. If you can just pull it much closer for--a 
little bit closer. And is it turned on?
    Mr. Adler. I have no idea. The one that says push?
    Mrs. Bono Mack. Thank you.
    Mr. Adler. Let me try that again.
    Good morning, Chairman Bono Mack and members of the 
Subcommittee on Commerce, Manufacturing, and Trade. Thank you 
for the opportunity to testify today along with my fellow CPSC 
Commissioners. I am pleased to be here today to discuss an 
agency that I have been associated with in some fashion since 
its establishment in 1973 and have been a Commissioner at since 
August of 2009.
    This October will mark the 40th anniversary of the passage 
of the landmark Consumer Product Safety Act, and looking back 
now, I believe Congress and the agency should take great pride 
in what the agency has accomplished, especially considering the 
immense scope of our mission, which is to protect the public 
from any and all unreasonable risks associated with roughly 
15,000 categories of consumer products.
    What has the agency accomplished? As a starting point I 
would cite the estimated 30 percent reduction in the rate of 
deaths and injuries associated with consumer products since the 
agency's inception. And I would particularly point to the 
dramatic drop in death and injuries to children, such as the 
reductions of over 90 percent in childhood poisoning deaths and 
crib-related deaths.
    In short, CPSC has produced an excellent return on 
investment. By our calculation this drop in deaths and injuries 
has resulted in over $16 billion in reduced societal costs, or 
many, many times the resources the CPSC has been given to do 
its job. And as a very small agency, we have had to produce 
these benefits at very low cost.
    Of course, even efficiency has its limits. As of 5 years 
ago, the CPSC had shrunk to a skeleton crew of less than 400 
and a budget of $62 million. To Congress' credit, in 2008, 
almost unanimously you passed the CPSIA, providing the agency 
with more tools and directing it to do more work and do it 
faster. Put simply, the CPSIA revitalized an agency that was 
underfunded and undermanned, and for that I am sure consumers 
across the country are grateful.
    Undoubtedly the biggest change felt by the children's 
product community has been the mandate in the CPSIA that all 
children's products be tested by third-party independent 
laboratories before they enter the market, and on a continuing 
basis thereafter. Let me assure you that we at the Commission 
have worked very hard to implement this mandate in a thoughtful 
and measured way, and I can report that we finally reached the 
point where the final rule will take effect in February.
    Of course, such a strong safety step forward carries broad 
implications for our regulated community, and we know that and 
are fully aware of our need to work closely with them as we 
implement the law.
    As we approach the fourth anniversary of CPSIA, it is worth 
reflecting on two common themes in the law. The agency needed 
more resources and other tools to accomplish its safety 
mission, and it needed to change its approach to vulnerable 
populations, particularly children. I think we will keep this 
in mind as we move forward into the future.
    I do want to note one particular provision in the CPSIA 
because it is something the Congress changed in the CPSIA. I 
believe that in section 9 of the CPSA, and other sections of 
our laws, we have the most burdensome cost-benefit requirements 
in the entire Federal Government. Under these requirements, by 
my count, the Commission has managed to issue a grand total of 
nine safety rules in 31 years, or roughly one every 3 \1/3\ 
years.
    The Congress recognized this, and Congress took major 
strides to lessen the burden. Congress didn't abolish the need 
for cost-benefit; Congress retained it in the Regulatory 
Flexibility Act. And to drive the point home, you prescribed 
extraordinarily short deadlines for the promulgation of rules 
for children's products. This approach, to me, clearly has 
succeeded. By the most conservative count possible under these 
procedures, we have issued 10 safety rules in the past 4 years, 
or 2 \1/2\ rules every year as opposed to 1 every 3 \1/3\ 
years.
    In closing, I want to share one major concern about a 
growing and increasingly vulnerable population, older 
Americans, of which I am now one. In fact, despite being only 
13 percent of the population, older Americans suffer 60 percent 
of the deaths and injuries associated with consumer products. 
The fact that I now fit within this demographic has definitely 
helped me understand what a serious challenge we face in the 
coming years as America ages.
    I look forward to working with my colleagues and the 
members of this subcommittee as we focus on our mission to 
protect our citizens from risks of unreasonable injury or 
death.
    Thank you very much.
    Mrs. Bono Mack. Thank you, Commissioner.
    [The prepared statement of Mr. Adler follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. And welcome, Commissioner Nord. You are 
recognized for 5 minutes.

                   STATEMENT OF NANCY A. NORD

    Ms. Nord. Thank you so much. I am delighted to be here.
    You have in front of you four different statements 
representing the views, the opinions, the observations and, in 
some cases, the criticisms of the four Commissioners of the 
CPSC. And yes, we all agree on many things. Of course, we all 
agree that children are our most vulnerable consumers and, more 
importantly, our most precious asset.
    Of course, we all agree that increased resources for 
engineers, compliance officers, scientists, port inspectors, 
and yes, dare I say, some lawyers has allowed us to really bump 
up our game in carrying out our mission.
    Of course, a state-of-the-art testing lab, which I am very 
proud to have initiated the efforts for, has met with rave 
reviews, and moving our information technology systems into the 
21st century has met with strong approval.
    Indeed, we find common ground in dealing with serious 
issues like mandatory safety standards for infant and toddler 
products and using our new authorities to address hazards like 
drawstrings. And we are all very, very proud of the great work 
that our staff is doing, especially in the ports and out in the 
field.
    So in many cases it is not the what, it is the how. And I 
am very concerned that we are falling short on the how, whether 
it is on big items or things with smaller significance.
    As I mentioned in my written statement, I have major 
concerns about how we develop the testing and certification 
rule; how we have defined children's products; how we have 
justified dropping the lead content limits from 300 parts per 
million to 100 parts per million. That is 99.99 percent lead 
free.
    I have concern about how our limited resources are being 
used. Did we really need to spend almost $2 million on 
consultants to tell us how to rewrite our strategic objectives 
and our mission statement? Will we know how we are going to be 
spending our funds come the October 1st beginning of the fiscal 
year if we have yet to establish our priorities in an operating 
plan?
    But more importantly than resources, it is how rules are 
being proposed, considered, and promulgated. If staff strongly 
suggests the Commissioners not move forward with finalizing the 
testing rule, but rather seek public input as directed by 
Congress, and the majority ignores that and puts a rush on the 
rule, how can we say that that is thoughtful and measured 
decision-making?
    When Commissioners decry the use of cost-benefit analysis 
and say, well, the Regulatory Flexibility Act is all we need 
because that focuses the impact on the impact on small 
businesses, yet consistently turns around and disregards the 
information that is in the Regulatory Flexibility Act because 
it doesn't lead to a desired regulatory result?
    When a claim is made that section 6(b) of our law is ultra-
restrictive and inhibits to the point of virtual prohibition 
releasing information to the public in a timely way, yet the 
agency in the past year three times has released inaccurate and 
misleading information, contrary to 6(b), that almost 
jeopardized the major recall in one case and caused the agency 
to do a public retraction in another?
    We can all agree that each Commissioner here today has a 
strong commitment to safety, and that differences of opinion as 
to regulatory issues should not be viewed as a lack of 
commitment. And believe me, I am not looking for trouble from 
my colleagues, but I am very troubled about how we approach 
issues.
    Interestingly, I note that one of my colleagues with whom I 
often disagree in the statement says, quote, ``The necessary 
but delicate balance of new safety requirements with new 
burdens.''
    I agree it is necessary. I agree it is delicate. I think 
that the agency's actions, over the past 2 years in particular, 
fall quite wide of the mark and have created a great imbalance 
between safety and new burdens, and as a result American 
consumers are overpaying for safety. We cannot close our eyes 
to the harm that we are causing many businesses that produce 
perfectly safe products and pretend that that harm does not 
exist. I think we need to work harder to find the balance that 
is missing.
    Thank you.
    Mrs. Bono Mack. Thank you, Commissioner.
    [The prepared statement of Ms. Nord follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. And again, a welcome to our former 
colleague. It is great to have you here. And, Commissioner 
Northup, you are recognized for 5 minutes.

                  STATEMENT OF ANNE M. NORTHUP

    Ms. Northup. Thank you. I am delighted to be here, and as 
the Commissioner that is rotating off the Commission at the end 
of October, this will probably be my last opportunity to share 
with this committee some of my observations and concerns as we 
go forward.
    I appreciate the remarks of the other three Commissioners 
that preceded me. I agree with Commissioner Nord, who talked 
about many of the accomplishments that we have done, the 
durable goods standards, the mandatory standards, our work at 
the borders and imports. All of those are claims that I think 
all of us are very supportive of.
    But I am going to specifically talk about several examples 
of the impact of what this Commission has done and share it 
with the committee so that they can judge whether or not that 
is what they anticipated when they passed the CPSIA and as they 
have funded this Commission.
    The dropping from 300 parts per million to 100 parts per 
million was done last year. August 1st it took effect. That 
meant we reduced from 99.97 percent lead free, to 99.99 percent 
lead free. Our staff found--and I am taking this right out of 
their proposed package--that it contributed minimally to the 
overall lead exposure of children. That is the benefit of it. 
Conversely, the Commission's economist concluded that mandating 
the lower lead limit would have significant adverse economic 
impacts, including the use of more expensive low-lead 
materials, costly reengineering of products to use lower-lead 
materials, increased testing costs, increased consumer prices, 
reduction in the type and quality of children's products 
available to consumers, businesses exiting the children's 
market, and manufacturers going out of business.
    There is no question that these effects have been felt. 
Unfortunately the businesses that have left the market or that 
have gone out of business are no longer here to testify to you 
and to provide information to you because they have left the 
market.
    What did this do? This created an enormous new hidden tax 
on consumers and parents. Many, many manufacturers have shared 
with us the bells and whistles that they took out of their 
products, the lack of choices, the fewer models that they 
offer, the cost increases that they have had to pass on to 
consumers for something that has almost no measurable benefit 
to a child.
    That is the kind of decision that has concerned me 
throughout my term, this sort of out-of-context rulemaking that 
we do. I know, as Members of Congress, that as you pass 
legislation, you consider what is good for consumers. At the 
same time you consider the unemployment rate, the cost of 
living, all of the other global impacts that you have that you 
bear on your shoulders. But when you are at the Commission, no 
one has to think about any of those other things. In the name 
of safety, this Commission has taken actions that far overreach 
any necessary protection to consumers.
    Probably the biggest decision that we made that I have 
found so discouraging, and I think it is important to share 
with you, is our reversal on unblockable drains. The Virginia 
Graeme Baker Act required that we protect children, protect the 
public from deaths in pools where--it is called evisceration, 
where a blockable drain can trap a child or an adult so that 
they cannot become free, and they are eviscerated. And after 
you passed this law, you gave us a great deal of choice. We 
could have backup systems or any other technology that we 
thought was equal to that. In the meantime American inventors 
came up with several inventions with the ability to change a 
blockable drain to an unblockable drain. And the Commission 
found that that met the requirement.
    After a year, and at great cost to many the pool owners 
that adopted this new technology, the Commission reversed 
itself because one Commissioner changed their vote. And it 
meant that that unblockable drain cover no longer satisfied the 
law. And so now everyone has to have a backup system. A vacuum 
alert, which is the primary system they use, is not dependable. 
It goes off when it shouldn't. It doesn't go off when it is 
supposed to, as it didn't in Tennessee just last month. It is 
not available to private pools. It is much more expensive. We 
were overwhelmed with the number of letters that came into us 
and told us that this was a less safe direction to take, and 
yet we proceeded down that direction at great cost to the 
public.
    We estimate over 1,100 pools have closed--not our agency, 
but the association that oversees pools. We know that many 
States have said they simply can't bring pools into compliance, 
and here there was a much less costly, much more available 
technology that could have been available to pools, but was 
reversed by our Commission. I can certainly answer more 
questions about this if there is more time.
    In the end, though, this Commission has made many 
decisions, many rules, completely disregarding the cost, the 
lack of choice it is going to give consumers, the inability of 
small companies to comply with these regulations all in the 
name of children's safety despite the fact that our staff has 
told us many of these will not increase safety for children.
    [The prepared statement of Ms. Northup follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. Thank you, Commissioner, and again, I thank 
you all very much for your testimony and for your hard work and 
your dedication to these issues.
    And now I recognize myself for 5 minutes for questioning 
and would like to direct my first question to Commissioner 
Tenenbaum. It might be a little bit outside of the ordinary 
question you get, but something that I have been looking at and 
you all came screaming to mind is the problem with bath salts. 
In recent months the news has been overflowing of the reports 
on the health implications of designer drugs that are sold and 
labeled as bath salts. The CDC has reports on file that date 
back to 2010 showing numerous instances of people being 
hospitalized and even dying from these substances. Despite the 
fact that the DEA has banned some ingredients, online 
pharmacies and small minimart-type stores continue to sell 
them. They are labeled bath salts, and they clearly say on them 
``not for human consumption.'' And it is an attempt to avoid 
the DEA ban. And despite that fact, there is no legitimate 
purpose as a bath salt.
    Does the CPSC have any jurisdiction to regulate the sale of 
products like legitimate bath salts?
    Ms. Tenenbaum. Thank you, Madam Chairman.
    That may fall under the category of cosmetics under the 
Food and Drug Administration, but I would like to check with 
our legal staff when I return to the Commission and get you an 
answer for that. But it might be a cosmetic and, as such, would 
not be under our jurisdiction.
    Mrs. Bono Mack. Has this ever risen to the level of your 
interest? Have you seen it out there? Have you seen the stories 
and said, ``Can I take a look at that?''
    Ms. Tenenbaum. I have seen the stories. I don't believe our 
staff has investigated it because it might not fall under our 
jurisdiction.
    Mrs. Bono Mack. Could you possibly take a look and see if 
there is--I mean, these have very seriously----
    Ms. Tenenbaum. Certainly, I certainly will.
    Mrs. Bono Mack [continuing]. Dangerous substances that are 
out there, and I would hope that Commissioner Adler as well 
would take a strong look at that and see how we can throw the 
kitchen sink without these dangerous bath salts.
    Ms. Tenenbaum. And we also could meet with the FDA to talk 
about how jointly we could address the hazards. So we will 
follow up on that for you.
    Mrs. Bono Mack. I appreciate it very much.
    Also something, I did send you a letter, Commissioner 
Tenenbaum, about the thought of launching a Facebook fan page. 
Can you tell me what the status of the Commission's plans are? 
Did you happen to send a letter back to me on this matter?
    Ms. Tenenbaum. No. First of all, all the Commissioners have 
voiced support for the concept of having social media and using 
social media to educate the public on risks such as soft 
bedding, carbon monoxide, drowning, and furniture tip-overs. 
There is an issue, however, on whether or not Facebook would 
violate section 6(b) of the CPSA, which requires us that if we 
obtain information on a manufacturer, that we cannot give that 
information out publicly without obtaining the consent of the 
manufacturer. So the issue is can someone--if we had a 
Facebook, and a person posted something about a manufacturer as 
a comment, would that mean we obtained information; as such 
would we have to scrub all of that information and ascertain 
its accuracy before it is posted? That would require too much 
resources from the Commission.
    So we have not made a decision. Our general counsel's 
office is continuing to work on all of the issues, and we will 
provide you with that memorandum when or if we decide to go 
forward with Facebook.
    Mrs. Bono Mack. So to clarify, the general counsel just has 
not opined on that matter yet at all?
    Ms. Tenenbaum. She and her staff have worked hard on that, 
and it is not completed. Other offices in the Commission, other 
Commissioners had raised other legal issues that required more 
legal research, and so they have not finished that memorandum.
    Mrs. Bono Mack. Thank you.
    And Commissioner Northup?
    Ms. Northup. Madam Chair, I think it would mislead, 
misrepresent the position of at least myself and maybe 
Commissioner Nord that we are all in support of opening a 
Facebook page. While we acknowledge that we can understand the 
benefit, I, at least, and, I think, Commissioner Nord, believe 
it absolutely would violate the overarching rules in our 
Commission, and that 6(b) is not exactly as the chairman 
described it. That sort of misrepresents 6(b)'s requirements.
    But I would also point out to you that the database, in the 
database, that you all suspended the 6(b) requirements for the 
database, and then we wrote that rule, and it is now under 
attack in the courts. Someone has filed suit against us that 
they have not--that we have violated the laws. If we lose that 
case, it would almost certainly say that any putting up of 
Facebook would violate the protections of 6(b).
    And I might say it will make--if we lose that case, we 
could possibly undo millions of dollars of work we have done on 
this and have to rewrite the rule, something that I claimed all 
the way through the process.
    Mrs. Bono Mack. Thank you very much.
    At this point I will recognize Mr. Butterfield for 5 
minutes.
    Mr. Butterfield. I thank the chairman, and also thank the 
gentlelady from Illinois for sitting in the Chair for me this 
morning. I have had a very busy morning, and I thank her very 
much.
    In March 2011, I wrote a letter to Chairman Upton and to 
the chairman of this subcommittee asking that the subcommittee 
hold a hearing concerning questions about the level of 
protection new and used football helmets provide athletes of 
all ages. In particular, concerns had been raised around this 
time about what kind of injuries can be prevented with the 
football helmet, and about whether used helmets continue to 
provide a sufficient level of protection against the injuries 
they are designed to guard against.
    So far this subcommittee hasn't acted to look further into 
these issues. I understand the CPSC has been engaged on these 
issues since they first drew scrutiny, and that you plan to 
become more engaged through a new initiative with the NFL and 
the CDC, among others. So I am going to ask the Chairman, 
Chairman Tenenbaum, can you please discuss all aspects of the 
work the CPSC is doing in this area, the status of that work, 
and where you plan or might like to see these efforts go?
    Ms. Tenenbaum. Thank you. I would be happy to talk about 
our work with the NFL. Like you, I am very concerned with the 
brain injuries in football and sports, especially those that 
affect young people, high school and college athletes. Because 
these injuries have such devastating consequence, this issue 
has been a priority for me. And our efforts have a short-, 
medium-, and long-term focus.
    In the short term, we would like to have a partnership with 
the NCAA, and the NFL, and the CDC, major manufacturers, and 
the voluntary standards to see what kind of reconditioning 
steps that we can take. All manufacturers with the exception of 
one have agreed to put a label on the new helmet which says the 
date that the helmet was manufactured, and gives a date that it 
should be reconditioned, optimally within 10 years.
    We also have worked with the NFL and will be making 
announcements this weekend in order to drive a culture change 
and have education in terms of how to avoid head injuries when 
playing football. Also, the NFL has funded a program for four 
communities where they will give helmets to schools where 
economically disadvantaged youth play. So these new helmets 
will help tremendously as well.
    Mr. Butterfield. Well, thank you for your work in that 
area. Is there anything we can or should do legislatively to 
support what you are doing?
    Ms. Tenenbaum. Well, we have--the research on helmets is 
not complete in terms of we have not found that there is a 
helmet that will prevent concussions. So we hope to monitor 
that. We hope this committee will stay interested in that and 
work with us on it because that would ultimately prevent 
injuries.
    Mr. Butterfield. Thank you.
    Mr. Adler, is there anything that you can add to this 
conversation about helmets?
    Mr. Adler. What I want to add is my personal thanks and 
commendation to the Chair for taking this on as a personal task 
and for dedicating a very valuable staff person to go around 
the country and work on this. I think what you have heard from 
the results that she has discussed are really wonderful 
results. I think she deserves almost total credit for doing 
that, and I think it is an important endeavor, and I hope it 
continues.
    Mr. Butterfield. Well, when I met with her in my office a 
few months ago, she told me it was one of her priorities.
    Mr. Adler. Well, it is, and I think she and her staff have 
done an excellent job.
    Mr. Butterfield. Yes. All right.
    Let's see. One of the biggest victories for consumers, 
consumer advocates, and those of us who believe in government 
transparency was the creation through CPSIA of the publicly 
available Consumer Product Safety Information Database. This 
database launched in March of last year at 
www.saferproducts.gov. There consumers can both file safety 
complaints about consumer products and view complaints by other 
consumers that have met the standards for inclusion in the 
database. And before Congress mandated creation of this 
database, the American public had almost no access to 
information provided by consumers to the CPSC about injuries 
from the products they use.
    Let me ask the Chairman or Mr. Adler, can you please 
discuss some of the statistics and trends you are seeing 
related to the database, like how many complaints are being 
filed and what types of complaints, et cetera?
    Ms. Tenenbaum. We receive on average 600 per month. In 
total we received a little over--almost 9,600 reports of harm 
posted on the saferproducts.gov as of July the 27th of this 
year. Over 1,000 of these reports have been assigned to follow-
up by our investigators, resulting in 875 completed 
investigations to date.
    There were some on the Commission that said this would be a 
place where trial lawyers would try to salt the database. We 
have found that 97 percent of all reports are of consumers who 
own the product and who have had experience personally with the 
product. The three top categories have been kitchen appliances, 
33 percent; nursery equipment or supplies is about 8 percent; 
and toys are about 5 percent.
    When you amended the CPSA to Public Law 112-28, you asked 
to us require the serial number. We found that the model of the 
serial number now, 88 percent are filling that portion in; 88 
percent is nonblank. So we have used it to recall two products, 
and we think that it has been generally well accepted.
    Mr. Butterfield. Thank you. I believe my time is expired. I 
thank you, and I thank you all of the Commissioners for the 
service that you render to our country.
    I yield back.
    Mrs. Bono Mack. Thank you, Mr. Butterfield.
    The Chair recognizes Mr. Guthrie for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chairman, for the 
recognition, and thank you for my colleague from Kentucky here 
with us today, and who some of you may know, or may not know, 
her sister was one of our great Olympians in 1984. And so 
talking about swimming pools and athletes here today, it is 
really--how proud she made Kentucky and how proud she made 
America.
    There is another Louisvillian, I can tell this, Chris 
Burke. Many of you know about Chris. He played at St. X. He hit 
the walk-off home run for Houston to beat the Braves. And 
somebody said about him, said when he was like 6, he was out 
hitting the ball every day. And they said he lived a moment of 
a lifetime, but he spent a lifetime getting to that moment. You 
know how hard our Olympic athletes are working to get there, 
and it is always great to praise your sister. Those great 
billboards in Louisville are always fun to see.
    In Shelby County in my district, there is a table saw 
manufacturer, and I am not going to ask a question, I just want 
to bring up--and their concern, you were going down--the 
Commissioner is looking at table saw technology, and nobody is 
saying that what--the technology you are looking at is not 
safer and makes things safer. Their concern is, is it patented, 
and the expense of it. So just making sure that there are 
some--as we look at new standards as opportunities for other 
types of technologies and things move forward, that creates the 
same kind of safety standards. So I just wanted to bring that 
forward.
    But I want to talk to Commissioner Northup on the President 
has issued Executive Orders on regulations, and he talked in 
the State of the Union how the regulations are strangling the 
economy in a lot of ways, and putting forth opportunities to 
move forward. I think there were two Executive Orders, and I 
guess my question--I can tell you what they are, but I think 
you guys are aware of them; if not, I can go through. But I 
just want to know what the CPSC has done to implement the 
Executive Orders of the President on reviewing regulations.
    Ms. Northup. Well, we are considering a package right now, 
although it has been a couple of months. It has been sort of 
dangling out there without agreement.
    Let me just say that the President and Mr. Cass Sunstein 
have both written extensively about it. They have both said 
their primary purpose, and I have a quote right here, is to 
insist on pragmatic, evidence-based, cost-effective rules. They 
specifically talked about looking at major rules, rules that 
affected a significant portion of the economy. They also talked 
about doing cost-benefit analysis.
    You have seen both in the previous testimony of the Chair 
in the Senate and now Commissioner Adler today the sort of 
resistance to cost-benefit analysis, that the benefit has to 
justify the cost. And this has been something we have publicly 
debated. I think that in the name of safety, you can just about 
adopt the most expensive, as we have seen, new standards that 
drive businesses out of business. So I believe we ought to do 
some cost-benefit analysis on the rules that we look at.
    The second thing is we need to look at major rules, and 
this year, for example, we have talked about two retrospective 
ones. One is the testing of toy caps. Toy caps, that is an old 
standard, was--has long been out of date. Nobody uses it. It 
was absolutely a nothing regulation. Nobody was using it. It 
has been overcome by the new F963 toy standards, new testing 
standards. And so to say we used retrospective review to bring 
the toy cap standards into modern times is to ignore, in my 
opinion, the intention of the Executive Orders and the spirit 
of them.
    And so as we talk about what our plan is going forward, I 
think we should agree that we are going to look at major rules, 
rules that have a significant economic impact as the President 
and Mr. Sunstein have talked about in their articles and, 
secondly, agree that we will do some cost-benefit analysis, and 
the conclusion of cost-benefit is that the benefit will be in 
proportion to the cost.
    Right now we have Reg Flex analysis. You will hear some of 
the Commissioners talk about, well, isn't that enough? But we 
have blown through rule after rule where it is clear that the 
analysis of the economic impact does not justify the new 
safety. It didn't matter. With Reg Flex analysis, all you have 
to do is the analysis; you don't have to create a finding that 
it is justified.
    Mr. Guthrie. Well, thank you. I am about out of time. And I 
just want to say, as we look at the reg review process in your 
Commission and all over, in terms of just the number of regs 
that we were looking at, what is actually hurting the economy? 
And there is a cement plant, Louisville Cemex over on Dixie 
Highway, that is in my district actually that is threatened by 
some regulations coming forward. So we can look at numbers of 
regs to look at or what actually makes big impact, and we need 
to look at ones that make big impact on the economy.
    I yield back.
    Ms. Northup. Of course, I agree.
    Mrs. Bono Mack. Thank you.
    And, Ms. Schakowsky, you are recognized for 5 minutes.
    Ms. Schakowsky. Thank you.
    You know, I am looking at your testimony, Commissioner 
Nord--no, I guess it was Northup--and you have in there ``the 
feverish regulatory pace.'' You know, we passed the CPSIA 4 
years ago, and this idea that somehow we are in a feverish 
regulatory pace--and it was in Mr. Adler's testimony that in 
the 31 years that--since the CPSC was saddled with unique 
requirements, I think you are talking about the emphasis on 
cost-benefit analysis, there were nine consumer product safety 
rules, over roughly one every 3 \1/2\ years. And so in the last 
4 years, I am happy to say there is 10 safety rules that came 
out.
    And, you know, I mean, I have worked with kids in danger on 
this crib stuff for a very long time, and the play yards for a 
very long time. I don't think that most consumers would think 
this is about a feverish regulatory pace of finally getting 
this done.
    So I want to ask you, Chairman Tenenbaum, how would the old 
way have impacted your ability to improve the safety of durable 
infant and toddler goods? Would you have been able to 
promulgate the crib rule as quickly as you did, or the play 
yard rule, and what impact would that have had on the safety of 
our children, which ought to be, it seems to me, the chief 
focus of the hearing today?
    Ms. Tenenbaum. Thank you, Congresswoman Schakowsky.
    We would not have been able to promulgate the infant 
durable nursery equipment rules on the schedule that Congress 
mandated that we promulgate them. We are required under the 
CPSIA to put forth two rules every 6 months on durable nursery 
equipment. Since the CPSC--CPSIA passed, we have written 41 
rules, all of which were required by the law. We have not gone 
off afield and created rules. All of the rules were required of 
us under the CPSIA. So had we not been able to work with the 
standards committee and industry to write the standards for the 
crib and then adopt it as our rule, it would have taken years 
to do cost-benefit analysis.
    I am not against cost-benefit analysis. I think sometimes 
it is justified, but when you are looking at trying to have 
rules that protect the safety of children and infants as this 
Congress--as Congress passed under CPSIA, having the 
Administrative Procedures Act helped us expedite the process, 
and we worked hand in glove with industry. Industry helped 
write these rules.
    Ms. Schakowsky. Thank you.
    Ms. Northup. May I respond?
    Ms. Schakowsky. Actually I have a question for Mr. Adler on 
a totally different subject, and I just want to get it in, 
because I have a--I am cochair of a seniors task force of the 
Democratic Caucus. And you briefly mentioned about older 
Americans and a particular vulnerability, and I am just 
wondering if you could explain that a little further.
    Mr. Adler. Yes. One of the things that the Congress has 
been particularly sensitive to is vulnerable populations. And 
as it turns out, the vulnerable population we have been 
dedicating our attention and resources to over the years, 
properly so, has been infants. But as part of this growing, 
almost exploding demographic, I have been very concerned about 
the impact of dangerous products on the senior population.
    If you look at the injury patterns for seniors, they almost 
always exceed the population at large. It is not as though--and 
falls are a huge part of it, and fires are another huge part.
    There are a number of products that we could probably take 
some measures to help the elderly with, and I will give you 
just one quick example. The Commission just wrote a section 104 
rule for infant bed rails. Well, as it turns out, the elderly 
suffer death at a much greater rate from bed rails than infants 
do.
    And it may well be that the fix for adult bed rails is not 
too different from infant bed rails. In other words, there are 
many, many projects that we ought to be addressing themselves 
to.
    The CDC just came up with a national plan for dealing with 
childhood injuries, and I have called for a national plan with 
CDC for adult injuries as well. It is a very, very important 
issue, and I hope to convince my colleagues to pay more 
attention to it. And I thank you for asking.
    Ms. Schakowsky. Thank you.
    I am out of time, and I yield back.
    Mrs. Bono Mack. Thank you, Ms. Schakowsky.
    The Chair recognizes the vice chair of the subcommittee, 
Mrs. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you, Madam Chairman; and thank you 
all for being with us this morning. Nice and timely. I will 
have to say you have created quite a little stir in the last 
week over an issue of Buckyballs. And I would just like to ask, 
Madam Chairman, how it is that you have taken such a hard-line 
stance against Buckyballs.
    And I tell you, reading all this and looking at it after 
the information came out, and having two grandchildren, one 
that just turned four and one that just turned three, you can 
compare this to toys like Hungry Hungry Hippo, which comes with 
all these marbles. It has been on the market for about 30 
years. There is a Fishing Well that also comes with marbles. It 
has been on the market for a long time. These are toys that we 
play with.
    So you know what I am having a hard time doing is 
understanding how you could come down against Buckyballs and 
Buckycubes when it is clearly noted that they are for children 
ages 14 and above and Hungry Hungry Hippo and Fishing Well are 
for children that are 3 and above. So it doesn't make a whole 
lot of sense to me as to what you are doing. So I was 
wondering: Why?
    Ms. Tenenbaum. Well, I appreciate that question. It 
certainly is timely.
    I want to explain to you why we cannot comment on the 
merits. We did not ban Rare Earth magnets, which is what 
Buckyballs and the category that they are. We referred the 
matter to an administrative law judge. That administrative 
law----
    Mrs. Blackburn. I am going to stop you right there, if I 
may, please, ma'am.
    You made the decision to go ahead with the recall, didn't 
you?
    Ms. Tenenbaum. No, we did not. We made the decision to 
refer the matter to an administrative law judge. That judge 
will make the determination what to do with the product.
    Mrs. Blackburn. What caused you to make that decision? We 
as Members of Congress have the right to ask you that question.
    Ms. Tenenbaum. Well, we will be the appellate body if the 
administrative law judge's decision----
    Mrs. Blackburn. All right. Then let's talk about the 
administrative law judge.
    Ms. Tenenbaum. I just wanted to lay the groundwork why I 
can't really get into the merits. Because we will be the 
appellate judges, so to speak.
    So let me say that we have a well-documented record as 
being alarmed by the serious and hidden hazards to children. 
The difference between Rare Earth magnets and marbles is that 
marbles do not cling together in the intestine. Children have 
had--a large number of children have had invasive surgery to 
remove these balls once they are in their intestine because 
they clamp, causing a huge blockage.
    Mrs. Blackburn. They are clearly labeled ``Not for 
Children.'' So let me ask you this: What about sparklers? We 
have just had July 4th. So why don't you outlaw sparklers?
    Ms. Tenenbaum. We do set limits on sparklers in terms of 
the heat they can generate. We do have rules.
    Mrs. Blackburn. But you have injuries. You don't issue 
recalls.
    We have just built a playhouse for the grandsons. My 
husband engineered this great thing. He had all sorts of power 
tools out there, and they had their little Black & Decker play 
set. What about power tools?
    Ms. Tenenbaum. There are a number of hazard in the 
marketplace. That is why the Consumer Product Safety Commission 
exists.
    Mrs. Blackburn. What about alcoholic beverages?
    Ms. Tenenbaum. There certainly are.
    Mrs. Blackburn. You have always got these alcohol poisoning 
cases and things of that nature.
    So let me go back to this administrative law judge.CPSC 
does not have an administrative law judge, correct?
    Ms. Tenenbaum. No, we referred this to an administrative 
law judge for a hearing, and that judge will determine whether 
or not the product----
    Mrs. Blackburn. Where is that judge going to come from?
    Ms. Tenenbaum. That judge would be right here in 
Washington, DC, probably, or it might be in Maryland.
    Mrs. Blackburn. So when this case is filed, the lawyers who 
try the case have to be separated from those who advise the 
Commission, correct?
    Ms. Tenenbaum. That is correct.
    Mrs. Blackburn. OK. Now that the lawyers all work together 
in the Office of the General Counsel, how will you ensure 
appropriate separation with these two groups of lawyers?
    Ms. Tenenbaum. Our Office of Legal Counsel has set up a 
wall, and we are all abiding by that.
    Mrs. Blackburn. A physical wall or an understood----
    Ms. Tenenbaum. A wall within the legal context so there 
will be no communication.
    Mrs. Blackburn. All right. And the Director of Compliance 
recently left that position and is now working with the Office 
of General Counsel also, is that correct?
    Ms. Tenenbaum. That is correct, but I can't comment on the 
involvement of that official.
    Mrs. Blackburn. And who is now the Acting Director of 
Compliance?
    Ms. Tenenbaum. Marc Schoem. But he has recused himself and 
has not been involved in this case.
    Mrs. Blackburn. Is he a lawyer?
    Ms. Tenenbaum. No, he is Acting Director.
    Mrs. Blackburn. It is supposed to be a lawyer. The CPSA 
requires that a lawyer be the Director of Compliance.
    Ms. Tenenbaum. We do. And it is in transition. And so we 
have, I believe, 90 days.
    Mrs. Blackburn. So you have got 90 days to make that right.
    Ms. Tenenbaum. We have 90 days in order to fill the 
position with a lawyer.
    Mrs. Blackburn. OK.
    Ms. Tenenbaum. I am saying it is 90 days. It could be more. 
I have to look at the statute.
    Mrs. Blackburn. The Commission authorized the filing of the 
complaint against Buckyballs last month, right?
    Ms. Tenenbaum. Yes. It was a bipartisan decision.
    Mrs. Blackburn. And it was signed by the executive 
director?
    Ms. Tenenbaum. Yes.
    Mrs. Blackburn. Is he a political appointee?
    Ms. Tenenbaum. Yes, he is. An SES as well.
    Mrs. Blackburn. We have got other questions. I am out of 
time.
    You have been generous. Thank you, Madam Chairman.
    Mrs. Bono Mack. I thank the gentlelady.
    The Chair recognizes Mr. Kinzinger for 5 minutes.
    Mr. Kinzinger. Thank you, Madam Chair.
    Ms. Nord, if I have some time at the end, I will let you to 
respond to my colleague from Illinois.
    I want to thank the Commissioners for being here. I want to 
touch on a topic that has the potential to impact several 
manufacturing sectors, which is important to my district.
    As the Commissioners are aware, phthalates are important 
components in products ranging from wire coverings, flooring, 
and in automobiles. The Chronic Hazard Advisory Panel's review 
of phthalates could set a precedent for the use of the product 
outside of children's toys, and I want to ensure the science 
that is used is transparent, properly peer-reviewed, and 
publicly available.
    Chairman Tenenbaum, OMB has described peer review as one of 
the important procedures used to ensure the quality of 
published information meets the standards of the scientific and 
technical community. To ensure the scientific integrity of the 
document, the draft report should be released for public 
comment before it goes to peer review, stakeholder 
participation should be encouraged, and the peer reviewer 
should be provided with all the data and studies provided to 
the CHAP.
    Can you ensure us that the peer review of the CHAP's draft 
report will be conducted in accordance with current OMB 
guidelines for peer review of highly influential scientific 
assessments, with particular attention to the need for 
transparency and public participation?
    I think this should probably be a fairly quick answer.
    Ms. Tenenbaum. The Chronic Hazard Advisory Panel is 
continuing its work. We keep an arm's-length relationship with 
that panel because they operate independently. I would like to 
talk with our Office of General Counsel to see how they are 
proceeding in terms of the peer review and write you a letter 
and get back with you.
    Mr. Kinzinger. That would be great. I would love to hear 
back. Because I think obviously to have that as an open and 
transparent process for something so big and so important is 
essential. We will stay on top of that, and I appreciate your 
responding to that, too.
    Do you believe that the CHAP should review all relevant 
data, including the most recent best available peer-reviewed 
scientific studies?
    Ms. Tenenbaum. I certainly do.
    Mr. Kinzinger. What procedures have you put in place to 
ensure that the CHAP and the Commission are weighing all 
relevant data and the best available science?
    Ms. Tenenbaum. Again, the Chronic Hazard Advisory Panel was 
mandated under CPSA, and we created it to look at phthalates, 
the three that were temporarily banned and other phthalates if 
they so find that others should be in the report. We are 
awaiting their report. The Commissioners do not interact with 
the CHAP because it has to be an independent body, but our 
staff has been there to make sure they follow appropriate 
procedures.
    If you have questions, if you will just submit them to us, 
we will write you and give you the full detail on how the CHAP 
has operated.
    Mr. Kinzinger. You all specifically, though, comply with 
OMB's peer-review process and everything like that, right?
    Ms. Tenenbaum. The peer-review process was vetted through 
the Office of General Counsel, and they were advising the CHAP 
on how to proceed with that.
    Mr. Kinzinger. Can you assure me, before the Commission 
issues its final rules under section 108, that you will publish 
a proposed rule for comment first?
    Ms. Tenenbaum. I will have to get back with you on that. I 
don't know that that is the procedure that we will follow. We 
will receive the report and then--but we will answer your 
questions fully on the procedure.
    Mr. Kinzinger. But prior to that what would be your 
concerns with publishing a proposed rule for comment?
    Ms. Tenenbaum. Well, I want to first make sure that the 
CHAP operates independently and that it has no undue influence 
by any of the Commissioners and that it makes its best 
scientific findings. And then we will also, in the spirit of 
transparency, which we operate at the Commission, we will 
follow what the advice is of counsel on how to proceed.
    Mr. Kinzinger. We look forward to staying in touch with 
you.
    Ms. Tenenbaum. We will certainly answer your questions in 
written form, too, so that you will have these.
    Mr. Kinzinger. Ms. Nord.
    Ms. Nord. Thank you.
    In responding to the question about a feverish regulatory 
pace compared to what we were doing before, I just would like 
to draw the committee's attention to the information in 
Commissioner Adler's statement about all the accomplishments of 
the agency from 1972 through the 30 years following and how big 
an impact this agency has made. So I don't think that we were 
acting at a snail's pace.
    With respect to the crib standard, first of all, I 
supported the crib standard. All of us did. In fact, I 
initiated when I was the acting chairman the AMPR that got the 
thing rolling. What I am concerned about is the manner in which 
we implemented the standard, and I think it flows directly from 
the fact that we didn't do the hard workup front.
    Just to give you a flavor of this, the staff came up with 
an effective date. The staff in their Reg Flex analysis said 
that they didn't anticipate that small retailers would be 
impacted. The retailers had worked out a deal with 
manufacturers for a retrofit kit. We did not even approve the 
use of that retrofit kit until about a month before the rule 
goes into effect. Another group comes in and says, oh, we can't 
meet the effective date; can we have longer time? We give them 
2 years. Another group comes in 2 weeks before the effective 
date and says, we can't make this date. We give them another 
year.
    It was just a very sloppy rollout of a rule. And that is of 
concern.
    Mr. Kinzinger. Thank you.
    Thank you, Madam Chair.
    Mrs. Bono Mack. Thank you, Mr. Kinzinger.
    Mr. Sarbanes, you are recognized for 5 minutes.
    Mr. Sarbanes. Thank you. Thank you, Madam Chair.
    Thank you, Chairman Tenenbaum and Commissioners, for being 
with us this morning.
    There is a staggering number of products, obviously, that 
we import, and in certain categories of percentages it is 
equally staggering when you think of it. Apparently, as I 
understand it, 99 percent of toys, 96 percent of apparel, 95 
percent of fireworks, 78 percent of electrical products sold in 
the U.S. are manufactured someplace else. So the task, the 
charge, the responsibility of the Commission to kind of keep 
its eyes open as these imports are coming in to make sure that 
the standards we would like to see are being applied, 
obviously, that is an important part of what the Commission 
does.
    And you have taken steps, I know, to improve that oversight 
and monitoring. In fact, as a result of the CPSIA and the 
increased authorization levels for the Consumer Protection 
Safety Commission, I think you have now increased the number of 
employees that are posted at U.S. ports of entry to do this 
kind of oversight, and monitoring has gone from zero, which, of 
course, was completely ineffectual, to now 20. The U.S. has 
more than 300 ports of entry.
    So the question is, if you have got, as I understand, 
employees posted in only about 15 of them, how is this going? 
From what I have heard, you have made great strides in the 
oversight, but I would be interested, Chairman Tenenbaum, in 
your perspective on the effort and is having the kind of 
coverage you now have producing a kind of deterrent effect with 
respect to the other ports of entry so that you know that the 
things coming in meet the standards. What other things can we 
do on that front?
    Ms. Tenenbaum. Well, thank you, Congressman.
    You are right. We have 20 members of our Ports Surveillance 
Team. And we have over 300 ports of entry. That is why it is 
very important that we have the methodology to target 
succinctly products that we think are violative coming into the 
ports and also that we have a very strong relationship with 
Customs and Border Protection.
    CBP allowed us to be the first agency to have a memorandum 
of understanding. We now have live streaming data through their 
CTAC office, their Center, so that we know when shipments are 
coming into the port and what are in those containers before 
they reach the port.
    With the pilot project that we have implemented, Risk 
Analysis Methodology, we are able to then look at repeat 
offenders, also products that are highly suspect or those that 
we monitor closely like electronics and fireworks, and we are 
able to with pretty great accuracy target those shipments 
before they are even into port and then interdict them and not 
let them be unloaded.
    Mr. Sarbanes. Would your experience--if you caught 
something at one of the 15 ports that you are monitoring, I 
guess what I am hearing is you are then in a position to be 
alerted to those kinds of imports coming into many other ports 
of entry and take action.
    Ms. Tenenbaum. We are. We know repeat offenders. We also 
know if there is a company that doesn't have a record with us.
    We are hoping to establish--and we have already created 
this Importer Self-Assessment Product Safety Program with CBP 
where we know those that are consistently in compliance, and we 
don't hold those shipments up. And we can let them go through 
the port and unload quickly. But those where you have suspect 
cargo or cargo that is repeatedly in noncompliance or repeat 
offenders, we are able to target them.
    The most-stopped products are children's products. The 
largest categories are lead, continuing to see lead violations, 
flammability, and small parts that pose a choking hazard. So we 
are able to, with our RAM and working with CBP, be highly 
effective.
    Mr. Sarbanes. And over time is there a plan--again, I don't 
understand your methodology, because I haven't studied it--but 
would the ports of entry that you are covering with your 
personnel, would you rotate that? Or the ones that have been 
chosen ones that you want to continue to monitor always because 
of the nature of them? How does that work?
    Ms. Tenenbaum. Well, with 20 people, we also rely on our 
field investigators. So we have 90 field investigators in 38 
States. If we know a shipment is coming in, we can move those 
investigators to that port to work with CBP and the person 
already stationed there. So we can move people around.
    And I think that is why it is so important that we get this 
data before the ships enter the port where this live streaming 
data that CTAC provides us, we know the contents of the 
container before it reaches us.
    Mr. Sarbanes. Thank you.
    I yield back.
    Mrs. Bono Mack. Thank you very much.
    The Chair recognizes Mr. Pompeo for 5 minutes.
    Mr. Pompeo. Thank you, Madam Chairman.
    I am not surprised.
    Now I will talk about the database a little bit. I still 
contend that it is happy hunting ground for the plaintiffs bar, 
in direct contrast to what Ms. Tenenbaum said. She said in her 
written statement: I think the saferproducts.gov has gained 
wide approval and acceptance.
    I know there is a lawsuit. Ms. Nord, do you agree with that 
statement, that it has gained wide approval and acceptance?
    Ms. Nord. I don't. I have heard a number of concerns 
expressed that indicate that there is not wide approval and 
acceptance out there.
    With respect to plaintiffs using the database, when this 
thing rolled out and I was given a briefing on it by a 
consultant, the consultant went into the database and very 
randomly pulled up a record. The consumer was listed as a law 
firm. And so that has since intrigued me. And just 2 weeks ago 
I asked our staff if they had any idea of how many of those so-
called consumers were actually law firms, and they said they 
had no way of knowing, but they assumed quite a few.
    When the chairman says 97 percent of the users of the 
database or submitters of the database are consumers, you 
should understand that consumer is defined so broadly to mean 
any living person. And you don't have to have a relationship 
with the product or any interaction with the product in order 
to file a complaint as a consumer.
    Mr. Pompeo. I appreciate that.
    Ms. Northup, there is a lawsuit filed by some businesses. 
Has the court yet ruled on whether the agency has 
misinterpreted the law? I certainly think that it did. But has 
the court ruled?
    Ms. Northup. We don't have that information yet. As I said 
earlier, when we wrote the rule I wrote extensively at that 
time that I thought that we were writing the rule in a way that 
we would be vulnerable to a lawsuit. The claims made in the 
lawsuit were litigated publicly, and the claims they made were 
the very ones that we made in our argument that I think will 
stand. I agree with them.
    If we do lose that, it will mean that our rule will have to 
be rewritten. It means our software will have to be redesigned. 
It means we could be vulnerable to a class action lawsuit by 
other people that feel that it has been arbitrary and 
capricious, was the idea what I wrote extensively about. And so 
this is why paying attention to the law and not rushing to 
regulate and glossing over facts is important.
    Another fact that is important not to gloss over is that 
when you say 88 percent of the items have something in the 
model or serial number, you should know that in many cases it 
is not the model or serial number. And we know that. And it is 
important that we give that information honestly to you. It 
might say: yellow high chair. And so, of course, if good 
information is good for consumers, bad information is really 
harmful to consumers.
    Mr. Pompeo. I appreciate you clarifying some of the 
responses Ms. Tenenbaum gave.
    Ms. Tenenbaum, yes or no, if the Federal court rules 
against the CPSC in the pending database lawsuit, will the 
agency pledge to immediately take down the database?
    Ms. Tenenbaum. Will you repeat your question?
    Mr. Pompeo. Yes, ma'am, I certainly will.
    Yes or no, if the Federal court rules against CPSC in the 
pending database lawsuit, will the agency pledge to immediately 
take down the database?
    Ms. Tenenbaum. No. That is not the scope of that lawsuit.
    Mr. Pompeo. I appreciate the answer.
    Ms. Tenenbaum. The lawsuit is under seal, and we cannot 
talk about it.
    Mr. Pompeo. I understand. So your answer is no.
    When we passed H.R. 2715 last year, it gave the CPSC 
authority to take steps to reduce the cost of complying with 
CPSIA and particularly the cost of third-party testing. I am 
very concerned about it. Why has the agency not done anything 
about that yet?
    Ms. Tenenbaum. We have done something. In fact, under this 
Public Law 112-28 we were required within 60 days to go out for 
comment, and we did. We went out for comment, we received those 
comments, and the staff is writing now the report, which we 
will receive any day now. So we have done that.
    In terms of rule review, the executive orders ask us to 
look at any rule that has an impact of a hundred million 
dollars annually on the economy. That is one of the rules that 
we are going to look at in terms of rule review.
    So we have followed what Congress passed.
    And regarding the model numbers for the database, 73 
percent have a numeric value. So 73 percent----
    Mr. Pompeo. Is it an accurate numerical value?
    Ms. Tenenbaum. Yes, I assume it is. If it is in there as 
accurate. It doesn't say ``yellow high chair.'' It gives the 
model number.
    Mr. Pompeo. I appreciate that.
    Ms. Nord, I hope you will encourage the Commission to do 
more under the authority to reduce the cost of third-party 
testing. Are there other things you all could be doing?
    Ms. Nord. There are a number of things we could be doing. 
In fact, I submitted a whole list of about 40 items to the 
staff.
    But I think the takeaway for you all should be that third-
party testing is really, really expensive. So let's use that 
for the riskiest items. Let's have the most aggressive testing 
for the riskier items, and let's ease off for things that have 
less risk or where we know there is high compliance. We can 
adjust that under the statute as it exists now.
    Mrs. Bono Mack. I hate to cut you off, but your time has 
expired, and we are trying to get in as many members and 
questions before we have a series of votes on the floor.
    Just to let members know, it is my hope we can get 
everybody through. So if we try to stick to under the gavel 
even, that would be great.
    The Chair recognizes Mr. McKinley for 5 minutes.
    Mr. McKinley. Thank you, Madam Chairman.
    I think it is always broad looking at the consumer product 
safety. I am not always sure what all that incorporates. It is 
consumer product safety. Do those little compact light bulbs, 
do they fit under your purview?
    Ms. Tenenbaum. Are you talking about button batteries or 
the light bulbs?
    Mr. McKinley. The compact fluorescent units, CFBs.
    Ms. Tenenbaum. Yes.
    Mr. McKinley. They have mercury in them. And we know that a 
typical household with 30 of those is the equivalent of a ton 
of coal being introduced inside your house. Same amount of 
mercury in a ton of coal as in 30 light bulbs. I just wonder, 
are people actually following the rules? They are taking them 
in a little bag and taking it up to a special disposal? Or how 
many of them are just throwing them in the trash can and they 
go to the landfill?
    Ms. Tenenbaum. I don't have that data, but I share your 
concern.
    Commissioner Adler, did you have anything to add?
    Mr. Adler. No, other than to say those definitely are our 
jurisdiction. Our jurisdiction is incredibly broad, as the 
chairman noted.
    Mr. McKinley. I don't know where you are going with it, 
because I don't think anyone is adhering to the guidelines. And 
the fact that we have such a fear right now of the mercury 
poisoning from burning coal but yet we just put 30 light bulbs 
in our house that bring in as much mercury as--I hope you will 
take it more seriously about the direction.
    But let me add a couple of other things, if I could.
    The lead in Chinese marbles, I understand that not too long 
ago there were some lead--lead was detected in some children's 
marbles, and those marbles obviously were rejected, 
appropriately. But the United States manufacturers who had 
never had marble detected in there now are going through some 
very draconian testing to see that they stay in compliance, but 
they have never not been in compliance. So they are being 
punished because of what China was doing.
    Ms. Tenenbaum. The law, as passed by Congress, requires all 
children's products to undergo third-party testing to make sure 
that the lead content is below 100 parts per million, and that 
was set by statute as well. So domestic and imported----
    Mr. McKinley. Do you determine the frequency of testing to 
make sure? Surely you are not going to test every marble.
    Ms. Tenenbaum. No. You have to test a sample initially. You 
pull a sample and test that. If you have a material change in 
the manufacturing----
    Mr. McKinley. Who pays for that test when you come into a 
plant?
    Ms. Tenenbaum. The manufacturer has to pay for it.
    Mr. McKinley. So here is a manufacturer that has never had 
a violation, but maybe once a quarter they have had someone 
come in and do some testing. But now we are up to less than 
once a month they are coming in, and it is costing you $3,000-
some for every one of those series of tests. And they have done 
nothing wrong. There has been no grounds for this other than 
the fact that China was trying to--once again, like they did 
with drywall, now they have done it with marble, that has 
caused this company now to spend thousands of dollars. Is that 
reasonable?
    Ms. Tenenbaum. Well, under the law that Congress passed, 
all children's products must be third-party tested initially, 
if there is a material change, and periodically. And that is 
the law.
    Mr. McKinley. Well, there is no change on this.
    So let me go to the next, the indoor air quality. Would 
indoor air quality be a product safety--the fact that we have 
carpet formaldehyde, resins, cleaning agents, other things 
that--we seem to be so concerned with--and rightfully so--the 
health of our children and adults, and we put them in an indoor 
air quality that has--90 percent of your time you are spending 
indoors, and they are exposed to all these elements. And we 
say, but they get asthma when they go outside. They get asthma 
when they go near a coal-fired powerhouse. But they spend 90 
percent of their time in a home.
    Ms. Tenenbaum. That is the jurisdiction of the EPA, just as 
the disposal of the mercury containing lights.
    Mr. McKinley. You just kind of wash your hands.
    Ms. Tenenbaum. No, I don't. I respect the jurisdiction of 
other agencies.
    Mr. McKinley. Then you support that? Of having--you have 
some standard. You say it falls under your purview, but yet the 
disposal of it is not. You give that to the EPA.
    Ms. Tenenbaum. The law gives it to the EPA.
    Mr. McKinley. Would you change the law?
    Ms. Tenenbaum. Well, we work in partnerships with many 
agencies.
    Mr. McKinley. Would you change the law so that it stays 
under you so you can have control over it? Because it sounds 
like you----
    Ms. Tenenbaum. No, you have to change the law. I am an 
executive branch. I follow the law.
    Mr. McKinley. Would you change the law? Because you seem 
like you say I am ready to get rid of it.
    Ms. Tenenbaum. No, that is not at all what I said. I was 
just trying to clarify the jurisdiction of EPA and our agency.
    Mr. McKinley. Thank you.
    I yield back my time.
    Mrs. Bono Mack. The gentleman, Mr. Lance, you are 
recognized.
    Mr. Lance. Thank you very much, Madam Chair; and Chairman 
Tenenbaum and distinguished members of the Commission, thank 
you for your service to the Nation.
    I am interested in how we can explore ways to increase 
efficiency and decrease costs and reduce red tape burdens 
without compromising safety. Commissioner Nord, thank you for 
the suggestions that you have made regarding this, particularly 
for small-volume manufacturers.
    Can you speak, Commissioner Nord, to the timeframe in which 
we might implement the changes you have suggested, considering 
the fact that Commissioner Northup may be leaving the 
Commission?
    Ms. Nord. Yes. I am so sorry to see Commissioner Northup 
leave our body, because she has made such a contribution.
    Mr. Lance. I certainly agree with that.
    Ms. Nord. When we were considering the testing and 
certification rule, the rule that was put out for comment had a 
low-volume exemption from testing in it. That was removed from 
what came up to the agency for a vote. I offered an amendment 
to put that back in. That amendment failed on a 3-2 vote. At 
that point, we had another Commissioner.
    And so certainly a low-volume exemption would certainly be 
a way to get at this. I have been talking with a number of 
people who have said we have just stopped doing low-volume 
manufacturing because we can't afford the testing costs. I was 
out in southern California talking to a clothing manufacturer, 
and they were very explicit about it.
    There are a number of other things that we can do to help 
companies that are struggling with how to comply with this 
rule. It is a very broad--overly broad, in my view--rule that 
imposes costs without real benefits. So I hope that the agency 
will reconsider its position.
    Mr. Lance. Thank you. I would urge the agency to do so. I 
would be happy to work with all members of the Commission on 
this issue, because I think it is important moving forward.
    On recreational vehicles, off-highway vehicles, would you 
please comment, Commissioner Nord or Commissioner Northup, on 
the fact that if the CPSC is going to include a pass/fail test 
as the main criteria to evaluate the stability of these 
vehicles, this might cause some challenges. Shouldn't a test 
that is meant to pass or fail a vehicle be repeatable so that 
one can be assured that the same result is achieved?
    Ms. Nord. Of course, any test that we would mandate, 
regardless of the product, has got to be repeatable. You can't 
put in place a testing method that nobody can predict the 
results from. So of course we must have repeatable tests.
    Mr. Lance. Thank you.
    Commissioner Northup, do you have an opinion on that as 
well?
    Ms. Northup. No. I have not participated in the ATV because 
I have a conflict of interest with my husband's company.
    Mr. Lance. Thank you.
    Madam Chair, I will cede the minute and a half I have left 
to colleagues.
    Mrs. Bono Mack. We thank you very much and recognize Mr. 
Harper for 5 minutes.
    Mr. Harper. Thank you, Madam Chair, and thank you, 
Chairman, each of the Commissioners, thank you for your time, 
your service.
    Chairman Tenenbaum, if I may ask you a few questions, I was 
certainly pleased to read your op-ed in The Hill last week 
where you indicated that you were taking a more collaborative 
approach with the window covering industry regarding cord 
safety. I am further pleased that you have spent the time 
visiting manufacturing facilities to better understand the 
difficulties in eliminating cords for all products. Can you 
tell me, without revealing any proprietary information, about 
these visits and what you have learned?
    Ms. Tenenbaum. Thank you.
    It was my pleasure to travel across the United States and 
meet with the three major manufacturers as well as the major 
retailers of window coverings. I have expressed concern about 
the strangulation hazard for children publicly, and the Window 
Covering Manufacturers Association and other stakeholders are 
in the process of rewriting a voluntary standard, which we will 
have in September.
    But what I have learned is that there is concern from the 
industry about the strangulation hazard. There are many new 
technologies which would remove completely this hazard. 
However, the industry also is--they are willing to work with 
us; however, they don't want to see a standard that completely 
does away with the cord. They can make the cord where it is not 
accessible to children and there are all kinds of technology 
that they share with us, but they don't want to eliminate 
having a cord entirely.
    However, I am very optimistic, meeting with retailers and 
with the association, that everyone wants to do a massive 
education campaign. So that if you are buying shades and you 
have children at home, then you would go cordless. You would go 
cordless or have no shades. You could have shutters or 
draperies. But you remove the hazard if there are children in 
the home. So I am very encouraged by my conversations with 
them.
    Mr. Harper. How are you proposing that we move forward from 
here?
    Ms. Tenenbaum. In September, we will receive the standard 
from the Window Covering Manufacturers Association. They will 
have voted on it. And we will continue to work with them to see 
how we can more and more eliminate the hazard.
    We also want to work with major retailers so they can train 
employees at the point of sale, so that there are kiosks online 
that have baby registries that can also bring to the attention 
of people that if you have a child in the home you need to go 
cordless. But see if we can't address some of the fatalities 
and reduce the number of fatalities by an educational program 
that was robust.
    Mr. Harper. I am certainly a big supporter of cooperation 
between government and industry, particularly when it comes to 
some of these safety issues and how best to achieve the safest 
product possible.
    You also discussed in your op-ed your efforts to better 
educate the consumer. With this in mind, can you tell me about 
your plans for the rest of this year and next with the Window 
Covering Safety Council and your efforts to educate new parents 
about potential hazards to children associated with window 
covering?
    Ms. Tenenbaum. We are in the process of working with major 
retailers and also associations to draft that plan. So that is 
in process, Congressman. But we are committed. I am personally 
committed, because I think we can reduce the number of 
fatalities with a robust education program and collaboration 
with the industry.
    Mr. Harper. Does the Commission plan on utilizing any of 
its funds towards this education effort?
    Ms. Tenenbaum. Well, we have limited funds. Unlike the pool 
safety campaign, where Congress gave us a direct appropriation, 
we don't have one for this. But it would be a great help to us 
to have one. But I think working with industry and with the 
retailers we can accomplish a lot without extra funding.
    Mr. Harper. Are promoting education and raising awareness 
some of the best tools that you have in your arsenal?
    Ms. Tenenbaum. No question about it. That is how social 
media fits in, as well as working with people, so that we can 
all have a strong education campaign on any hazard.
    Mr. Harper. Thank each of you for being here, and I yield 
back, Madam Chair.
    Mrs. Bono Mack. Thank you very much.
    The Chair recognizes Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair. I understand that votes have 
been called, so my comments will be brief.
    But I want to thank the witnesses. Thanks for coming. 
Thanks for your expertise.
    Chairwoman Tenenbaum, nice to see you again outside of a 
big storage facility outside the Port of Houston. Nice and cool 
here as opposed to the heat we had, even though it was the 
fall. Good to see you again.
    As my nameplate says, I am from Texas. As you all know, 
Texans love the outdoors. They like to go tubing on the Hill 
Country rivers. They like to fishing on our lakes, the Gulf of 
Mexico. They like to go out there and do some hunting. Or just 
look at the bright stars of the Texas night sky. And one way to 
get access to all these great things is with ROVs. So I am very 
concerned when I hear that the Federal Government may be 
threatening the quality of life in my home State.
    And so my question is for you, Commissioner Tenenbaum. I 
would like follow up with the line of questions by my colleague 
from New Jersey about the pass/fail stability tests. I 
understand CPSC staff supports adoption of a pass/fail 
stability based on the CPSC methodology. In a recent meeting, 
however, CPSC revealed that it has conducted no repeatability 
testing of its methodology or results. Do you agree to it being 
appropriate to base a mandatory pass or fail standard on the 
sample size of a single test--one test?
    Ms. Tenenbaum. Well, let me premise this by saying I will 
need to get back with you on what the staff is talking to the 
Recreational Off-Highway Vehicle Association and manufacturers.
    One of the things that has been brought to our attention is 
the number of deaths and injuries in 7 years, between 2003 and 
2010. We had 165 deaths and 329 serious injuries from ROVAs is 
what we call, or ROVs. And 70 percent involve lateral stability 
turnover.
    So we are looking and working with industry to develop a 
stronger lateral stability test. We have issues of 
understeerage and occupant protection. I do hope that the 
industry will work with us to develop a standard. My staff met 
with the ROVA representatives on July 19, and we are saying 
that we need to upgrade that standard to prevent the turnovers. 
And we could go to a mandatory standard, but it is always 
better if we can agree with industry and come up with a strong 
voluntary standard.
    Mr. Olson. Yes, ma'am. I am sorry I cut you off. I am 
running out of time here.
    Commissioner Nord, any comments on that line of 
questioning, ma'am?
    Ms. Nord. Well, lateral stability has been just a really 
perplexing problem not only with ROVs but also withATVs, and it 
has been something that we have been struggling with for years. 
So if we are going to be putting forward a standard that 
addresses lateral stability, we have got to make sure we have 
get it right, got to make sure we solve the problem, and we 
have got to make sure that we have a test that works and is 
repeatable. And I think that is where we are working forward.
    I fully agree with my chairman when she says that it is 
best to try to work cooperatively with industry to come up with 
something in a voluntary mode, and I hope that we can do that.
    Mr. Olson. In working cooperatively with industry, are we 
allowing the industry representatives to observe the testing to 
have some firsthand knowledge of what you are doing there so 
they can respond right on the scene?
    Ms. Tenenbaum. Well, collaboratively means that we share 
information. They have shared their stability tests with us. 
They came in and shared it with us, and the staff had some 
issues with it. We need to be very open and collaborative in 
sharing these tests, and also the industry should realize that 
and say, ``Yes, we have a lot of lateral turnovers, and we want 
to address it voluntarily.''
    Mr. Olson. Sharing is a two-way street. Industry shares 
with you. You share with them.
    I yield back the balance of my time.
    Mrs. Bono Mack. I thank the gentleman very much.
    As you all have heard, our votes have been called. We are 
down to the wire. So to begin to sum things up, I ask unanimous 
consent that a letter from the National Association of 
Manufacturers be included in the record of the hearing. It has 
been previously shared with Democrat staff.
    Without objection, so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Bono Mack. And, again, I would like to thank all of 
the Commissioners very much for your time today. I think you 
have shed a lot of light on some very important consumer 
product safety issues. I know that our committee looks forward 
to an ongoing and productive dialogue.
    I would like to thank my colleagues, especially Mr. 
Butterfield and Ms. Schakowsky, for working together in a 
bipartisan fashion to pass H.R. 2715 last year. We enacted a 
very good bill that saved a lot of American jobs while 
providing important protections to U.S. consumers. We call that 
a win-win around here.
    So I will be asking questions for you to submit back to us. 
Specifically, Ms. Northup, I had one all teed up for you. I 
will ask you in writing, if you could submit in return, simply 
to give us your conclusions in writing about your service. And 
thank you for your service as you leave the Commission. We are 
going to ask a big softball question for you. Say all you want. 
How would you improve the world of consumer product safety? So 
we look forward to that in writing.
    I remind members they have 10 business days to submit 
questions for the record. I ask the witnesses to please respond 
promptly to any questions that you receive.
    I wish you all a very wonderful August and safe travels.
    The hearing now is adjourned.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 <all>

</pre></body></html>
